                                       Offic
                                           ce of In
                                                  nspecto
                                                        or Gene eral
                                      Corpo
                                          oration for Nattional a
                                                                and
                                               Commmunitty Servvice




         AUDIT OF NATIONALL SERVICE TRUST PAAYMENTS
          TO FINANCIAL AND
                         D EDUCATI
                               
                                   ON INSTITU
                                            UTIONS

 
                            OIG REPORT 12
                                        2-08
     

     

     

     

                                          

                                          




                          1201 New
                                 w York Ave. , NW
 
                                   Suite
                                   S     830
 
                           Washing
                                 gton, DC 20
                                           0525
 
                                (202
                                   2) 606-9390
 

        This
        T    report was issued to Corporation
                                   C            ma  anagement onn April 3, 2012
                                                                              2. Under the
        la
         aws and regullations govern                            orporation is to make final
                                    ning audit folllow-up, the Co
        management
        m              decisions
                       d         on the
                                    t   report’s ffindings and rrecommendations no later
        th
         han October 3, 2012, and complete its     s corrective actions by A April 3, 2013.
        Consequently,
        C                the reported
                                    d findings do  o not necess sarily represeent the final
        re
         esolution of th
                       he issues pres
                                    sented.
                                  Office of InspecLor General


                                NATIOONAL&
                                COMMUNITY
                                SERVICE ~___


                                         April 3, 2012

TO:           Douglas Hilton
              Acting Chief Financial Officer

FROM:         StuartAxenfeld   .~ A~
              Assistant Inspector General for Audit

SUBJECT:      Office of Inspector General (OIG) Report 12-08: Audit of National Service Trust
              Payments to Financial and Education Institutions

Attached is the final report on the OIG's Audit of National Service Trust Payments to Financial
and Education Institutions. This audit was performed by OIG staff in accordance with generally
accepted government auditing standards.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by October 3,2012. Notice offinal action is due by April 3, 2013.

If you have questions pertaining to this report, please contact Thomas Chin, Audit Manager, at
(202) 606-9362 or t.chin@cncsoig.gov; or me at (202) 606-9360 or s.axenfeld@cncsoig.gov.

Attachment

cc:   Rocco Gaudio, Deputy CFO for Grants and Field Financial Management Center
      Peter Rudman, Director, Accounting and Financial Management Services
      Maggie Taylor-Coates, Chief, Trust Operations Branch
      Claire Moreno, Audit Liaison, Office of Grants Management
                                                           Table of Contents

Section                                                                                                                      Page



Executive Summary ...................................................................................................... 1

Results of Audit ............................................................................................................. 2

Audit Objective, Scope, and Methodology..................................................................... 5

Background.................................................................................................................... 6

Exit Conference.............................................................................................................. 7

Corporation Response.................................................................................................... 7

OIG Comment................................................................................................................. 7




Appendix:

A – Corporation for National and Community Service’s Response to Draft Report




                                                         TABLE OF ACRONYMS



                                        CFR           Code of Federal Regulations
                                        GAO           Government Accountability Office
                                        ICR           Internal Control Review
                                        NCCC          National Civilian Community Corps
                                        OIG           Office of Inspector General
                                        OMB           Office of Management and Budget
                                        USC           United States Code
                                        VISTA         Volunteers in Service to America
                                                       EXECUTIVE SUMMARY



The Office of Inspector General (OIG), Corporation for National and Community Service (Corporation),
performed an audit of the National Service Trust Payments to Financial and Education Institutions.
Our audit objectives were to determine whether National Service Trust (Trust) payments, including
interest forbearance, were made to legitimate financial and educational institutions; were properly
reviewed and approved prior to disbursement; were accurately recorded in a timely manner; and the
Corporation has adequate internal controls over the Trust payment process.

During our audit, nothing came to our attention that institutions we reviewed are not legitimate and we
did not note any improper payments from our samples. Also, we noted that our selected Trust
payments were recorded timely, and properly reviewed and approved prior to disbursements.
However, we found that the Corporation had no documented review process to verify that financial
institutions have a qualified student loan that is eligible to receive an education award disbursement.
We also noted that there was no documented review process to verify that installment payments were
paid in accordance with Title 45 of the Code of Federal Regulations (C.F.R.) § 2528.30(c), Installment
Payments. Although the financial institution samples we selected and reviewed appeared to be
legitimate, we found that the Corporation solely relies on the institutions’ self-validation to certify their
eligibility to receive education awards and comply with applicable regulations. We further noted that
there were multiple duplicated financial and education institutions recorded in the eSpan system1 and
some of the samples we selected had been incorrectly inactivated by the Corporation personnel. This
condition could lead to invalid institutions receiving Trust disbursements and improper payments. Also,
Trust disbursements could be delayed if they are sent to an incorrect institution, or to an institution that
is listed in eSpan system, but with multiple institution identifications in the eSpan system.

Based on our audit findings, we recommend the Corporation document and implement scheduled
reviews of disbursements to financial institutions to validate that education awards are paid to a
qualified loan and ensure that installment payments are being disbursed in accordance with Title 45
C.F.R. § 2528.30(c). We also recommend the Corporation reviews the validity and existence of
financial and education institutions recorded in the eSpan on a regular basis, ensure the institutions
are registered through the MyAmeriCorps Portal2, and input comment in the eSpan system on the
Institution Maintenance Screen that includes written reason(s) when an institution becomes inactive, its
date of inactivation, and the identification of the Trust personnel who initiates the institution
inactivation.




                                                            
1
  eSpan processes education award payments for the AmeriCorps National Service Program.It interfaces with Momentum, the Corporation’s
core financial management system. It uploads a weekly file to Momentum to update accounting data, and uses electronic file transfers to
receive enrollment data and provide updated financial information to Momentum.    

2
   MyAmeriCorps Portal communicates data for the National Service Trust and grantees/sub-grantees through the grantees’ financial status
reports. It also allows AmeriCorps members and Corporation personnel to record and view AmeriCorps members’ personal information,
education award status, as well as program information. 

 

                                                                    1
                                          RESULTS OF AUDIT

Finding 1. Lack of Review of Financial Institutions Validity and Installment Payments Dates


During our review of the education award disbursements, we noted the Corporation has no
documented review process to verify that financial institutions have a qualified student loan or are
eligible to receive an education award disbursement. We noted that, for all 10 active financial
institutions we sampled, and for three sampled Trust disbursements that were paid after expiration
date, the loan types and financial institutions were not validated by the Corporation. The financial
institution samples we selected appeared to be legitimate. Based on our discussion with Trust
personnel, we determined that the Corporation relies on the financial institutions’ self-validation that
their student loans meet the criteria for an education award. Although the Corporation performed
Fiscal Year 2011 Internal Control Review (ICR) of the Trust, we determined that it did not review
whether financial institutions were legitimate and eligible to receive an education award disbursement.

We also noted that the Corporation had no documented review process to verify that installment
payments were paid in accordance with Title 45 of the C.F.R. § 2528.30(c), Installment Payments. We
noted that 44 of the 47 Trust disbursements we sampled that were paid to institutions after expiration
date had installment payments, and the installment payment dates were not verified by the Corporation
to determine if those payments were in compliance with Title 45 C.F.R. § 2528.30(c). Title 45 C.F.R. §
2528.30(c) requires that the Corporation disburses the education award to the education institution in
at least two separate installments, and none of which exceeds 50 percent of the total amount. The
interval between installments may not be less than one-half of the period of enrollment, except as
necessary to permit the second installment to be paid at the beginning of the second semester,
quarter, or other division of a period of enrollment. Currently, for education award requests made
through the MyAmeriCorps Portal, education institutions record the dates for the installments in the
“Enrollment Start Date” and “Enrollment Midpoint Date” fields in the “Education Award Payment
Request” screen. For manual education award requests, education institutions complete the
“Enrollment Start Date” and “Enrollment Midpoint Date” fields in the “Manual Payment Request Form.”
The Corporation requires that the education institutions record the installment dates on the applicable
form and self-validate that the information compiles with Title 45 C.F.R. § 2528.30(c). Based on our
discussion with Trust personnel, we determined that the Corporation relies solely on the institution to
certify that all of the information it provides is true and correct, and that knowingly and willfully
providing a false statement on the form could be punished by a fine or imprisonment or both by the
United States Code (U.S.C.) Title 18, § 1001. Our review of the ICR of the Trust conducted in Fiscal
Year 2011 verified that the Corporation did not review whether the installment payment dates were in
compliance with Title 45 C.F.R. § 2528.30(c).

Title 45 C.F.R. § 2528.30(c), Installment payments, states:

       The Corporation will disburse the education award to the institution of higher education
       in at least two separate installments, none of which exceeds 50 percent of the total
       amount. The interval between installments may not be less than one-half of the period
       of enrollment, except as necessary to permit the second installment to be paid at the
       beginning of the second semester, quarter, or other division of a period of enrollment.



                                                   2
The Corporation’s National Service Trust Standards & Operating Procedures, Chapter VI. Making
Payments, section “What is a ‘qualified loan’?” states:

       AmeriCorps legislation defines a "qualified" student loan as one backed by the federal
       government under Title IV of the Higher Education Act (except Parental PLUS loans) or
       under Titles VII and VIII of the Public Health Service Act. Also included are loans
       covering all or a part of a student's cost of attendance made directly to the student by a
       state agency. A defaulted student loan, as long as it meets the definition of "qualified,"
       can be paid using the educational award. Some of the most common qualified loans are
       Stafford Loans, Perkins Loans, Federal Direct Loans, and Supplemental Loans for
       Students (SLS), Federal Consolidated Loans, Health Education Assistance Loans
       (HEAL), Health Professions Student Loans (HPSL), and loans made directly to
       members by a state agency.

Government Accountability Office (GAO) Standards for Internal Control in the Federal Government,
states:

       Internal control should provide reasonable assurance that the objectives of the agency
       are being achieved in the following categories:

              • Effectiveness and efficiency of operations including the use of the entity’s
                resources.
              • Compliance with applicable laws and regulations.

Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility for Internal
Control, states:

       Agency managers should continuously monitor and improve the effectiveness of internal
       control associated with their programs… Internal control is an integral component of an
       organization’s management that provides reasonable assurance that the following
       objectives are being achieved: effectiveness and efficiency of operations, reliability of
       financial reporting, and compliance with applicable laws and regulations.

Recommendations

We recommend the Corporation:

1a. Document and implement scheduled reviews of disbursements related to financial institutions in
    order to validate that education awards are paid to qualified loans; and

1b. Document and implement reviews to ensure that installment payments are disbursed in
    accordance with Title 45 C.F.R. § 2528.30 (c), Installment Payments.




                                                   3
Finding 2. Duplicated and Inactive Institutions Recorded in eSpan System

We noted that there are multiple duplicated financial and education institutions recorded in the eSpan
system. This results from institutions either being added or updated manually by Trust personnel, or
the institutions that have been previously added in the eSpan system by Trust personnel also
registered through the MyAmeriCorps Portal. Since March 2011, the Corporation’s Trust Office has
been working to clean up the eSpan system of multiple listings of education or financial institutions.
However, the Trust Office is unaware of the frequency, if at all, of financial and education institution
reviews or updates conducted prior to the appointment of the current Chief of the Trust Operations
Branch in 2008. There are no policies and procedures outlining the process for reviewing or
documenting scheduled reviews for the institutions listed in eSpan system.

In our testing of 45 sampled inactive institutions, 43 became inactive as a result of the Corporation’s
effort to clean up the duplicated financial and education institutions from the eSpan system. For nine
of the 45 inactive institutions, there were no comments or explanations explaining why these
institutions had become inactive. In addition, we noted that there was a lack of consistent
documentation (such as the reasons for inactivation, date, or identification of the Corporation
employee(s) who initiated the inactivation), included in the comment section of the Institution
Maintenance Screen in the eSpan system. We further noted that two of our inactive samples were
incorrectly inactivated. Two of the 45 inactive institutions were incorrectly inactivated on January 21,
2010, and March 17, 2011, respectively, and were subsequently reactivated on September 29, 2011.
Under these conditions, invalid institutions could receive Trust disbursements, resulting in improper
payments. Also, Trust disbursements could be delayed if they are sent to the incorrect institution, or
to an institution that is listed in eSpan system, but with multiple institution identifications.

GAO Standards for Internal Control in the Federal Government, states:

       Internal control activities help ensure that management's directives are carried out. The
       control activities should be effective and efficient in accomplishing the agency's control
       objectives. Control activities are the policies, procedures, techniques, and mechanisms
       that enforce management’s directives. Control activities are an integral part of an entity’s
       planning, implementing, reviewing, and accountability for stewardship of government
       resources and achieving effective results.

       Internal control should generally be designed to assure that ongoing monitoring occurs
       in the course of normal operations. It is performed continually and is ingrained in the
       agency’s operations.

       Internal control should provide reasonable assurance that the objectives of the agency
       are being achieved in the following categories:

              • Effectiveness and efficiency of operations including the use of the entity’s
                resources.
              • Compliance with applicable laws and regulations.




                                                    4
Recommendations

We recommend the Corporation:

2a. Develop policies and procedures to require periodic reviews of the validity and existence of
    financial and education institutions recorded in the eSpan;

2b. Ensure financial and education institutions are registered through the MyAmeriCorps Portal; and

2c. Add comments in eSpan’s Institution Maintenance Screen that includes documented reason(s)
    when an institution becomes inactive, the date of inactivation, and identification of the Trust
    employee(s) who initiated the inactivation.



                            AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

We conducted our audit in accordance with generally accepted government audit standards. Those
standards required that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Our audit objectives were to determine whether: Trust payments, including interest forbearance, were
made to legitimate financial and educational institutions; were properly reviewed and approved prior to
disbursement; were accurately recorded in a timely manner; and the Corporation has adequate internal
controls over the Trust payment process.

The scope of this audit was from June 1, 2010 to June 30, 2011. Our preliminary audit scope period,
stated on the audit notification, was changed from June 1, 2009 to June 1, 2010. We modified the
scope because the Corporation’s Trust Standards & Operating Procedures were revised in December
2010. Our revised audit scope, which was communicated to the Corporation on August 2, 2011,
covered the latest control environment of the Corporation’s Trust operations.

We performed our fieldwork at the Corporation Headquarters between May 2011 and December 2011.
The methodology included obtaining and reviewing applicable Federal and Corporation policies and
procedures to obtain an understanding of the Trust disbursement process to education and financial
institutions. We interviewed Corporation personnel responsible for processing and overseeing the
Trust fund disbursements. We also obtained a list of education and financial institutions recorded in
eSpan and performed testing on these institutions, as well as related Trust disbursements, through
judgmental or randomly selected samples. Our samples included the following categories: (1) active
education and financial institutions (we selected 55 samples from a population of 21,992); (2) inactive
education and financial institutions (45 samples from a population of 245); and (3) Trust disbursements
paid after expiration date (47 samples from a population of 263).




                                                  5
                                            BACKGROUND

The National Service Trust was established by the National and Community Service Act of 1990 and
was amended by the Edward M. Kennedy Serve America Act of 2009. The Trust consists of:

      The payment of national service education awards, Summer of Service education awards,
       Silver Scholar education awards, and forbearance interest expenses;
      Any amounts received by the Corporation as gifts, bequests, or otherwise pursuant to section, if
       the terms of such donations direct that the donated amounts be deposited in the National
       Service Trust;
      Any amounts recovered by the Corporation; and
      The interest on, and proceeds from the sale or redemption of, any obligations held by the Trust.

The Trust is to provide funds for education awards for eligible participants who successfully complete
service in AmeriCorps, which engages American of all ages and backgrounds in full-time and
sustained part-time service to the community. AmeriCorps is made up of three components:
AmeriCorps State and National, AmeriCorps Volunteers in Service to America (VISTA), and
AmeriCorps National Civilian Community Corps (NCCC). Trust funds are available to:

      Repay qualified student loans;
      Pay educational expenses at a qualified institution of higher education; and
      Repay eligible interest expense on student loans.

The value of an education award depends on the term of service performed by an AmeriCorps
member. The following table shows education awards available for different service types:

       Types of Service        Minimum           Education Award           Education Award
                             Service Hours           2010 ($)                  2011 ($)

           Full Time              1,700                5,350.00                5,550.00

           Half Time               900                 2,675.00                2,775.00

       Reduced Half Time           675                 2,038.00                2,114.29

         Quarter Time              450                 1,415.00                1,468.25

         Minimum Time              300                 1,132.00                1,174.60



Education awards earned by AmeriCorps members are available to be used for seven years from the
completion of the service. Extension of the seven-year time period is granted under certain
circumstances and can be extended. However, extension requests must be made before the end of
the seven-year period and approved by the Corporation. Payments from the Trust are made directly to
the education institutions and the loan holders, as directed by the members or education institutions.
The Trust is not used to pay member stipends or other grant costs.




                                                   6
                                           EXIT CONFERENCE

The contents of this report were discussed with the Corporation representatives at an exit conference
on January 25, 2012. We summarized the Corporation's response to the draft report below and
included its response, in its entirety, as Appendix A.



                                       CORPORATION RESPONSE

Corporation management acknowledged the findings and recommendations in the report. The
Corporation stated that it is beginning a consolidation of the offices responsible for reviewing internal
controls, and our recommendations will be submitted to a new office for its consideration in reviewing
risks and controls related to the Trust.



                                             OIG COMMENT

The Corporation's planned actions satisfy the intent of our recommendations. We will assess the
Corporation's implementation of our recommendations during the audit resolution process.




Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service




                                                    7
 

 

 

 

 

 

 

                                  Appendix A



    Corporation for National and Community Service’s Response to Draft Report



 

 




                                       8
NATIOONAL&'
COMMUNITY - - - - -- - - - - - - -                                                   's"Afl
SERVICE .........-                                                                   wv

      To:            Stuart Axenfeld, Assistant Inspector General for Audit


      From:      ~JL/!f!!j;chief Financial Officer
      Date:          March 30, 2012

      Subject:       Response to OIG Draft Report: Audit ofthe National Service Trust
                     Payments to Financial and Educational Institutions

      Thank you for the opportunity to review the February 10,2012 draft report on the OIG
      Audit of the National Service Trust Payments to Financial and Educational Institutions.
      Your report concludes that all sampled institutions were verified as legitimate
      institutions; all sampled payments were determined to be proper, with appropriate
      reviews and approvals prior to disbursement; and that the payments were recorded in a
      timely manner. The draft report also included two findings and several recommendations
      to improve CNCS' future reviews of Trust payments, and to improve the reliability of
      information in systems which are used to process Trust payments.

      CNCS is beginning a consolidation ofthe offices responsible for reviewing internal
      controls, including risk assessments of core business cycles and evaluation of the design
      and effectiveness of policies and procedures to mitigate those risks. The
      recommendations in this report will be submitted to this new office for its consideration
      in reviewing the risks and controls related to the National Service Trust.

      cc:     Rocco Gaudio, Deputy CFO for Grants and Field Financial Management
              Peter Rudman, Director of Accounting and Financial Management Services
              Maggie-Taylor-Coates, Chief, Trust Operations Branch
              Claire Moreno, Audit Liaison, Office of Grants Management




                  Senior Corps    * AmeriCorps * Learn and Serve America
      1201 New York Avenue, NW   * Washington, DC 20525 * 202-606-5000 * www.nationalservice.gov
